TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Recommended Adjustments From
                S Corporation Audits Are Substantial, but the
                 Number of No-Change Audits Is a Concern



                                           June 21, 2012

                              Reference Number: 2012-30-062




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


THE RECOMMENDED ADJUSTMENTS                           determine if examiners are auditing the most
FROM S CORPORATION AUDITS ARE                         productive returns. With skills in such
SUBSTANTIAL, BUT THE NUMBER OF                        specialized areas as statistics, operations
NO-CHANGE AUDITS IS A CONCERN                         research, economics, and computers, SB/SE
                                                      Division researchers are uniquely qualified to
                                                      suggest alternative audit selection methods and
Highlights                                            explore details such as assessing the revenue
                                                      impact from S corporation audits by determining
                                                      the taxes assessed or refunded at the
Final Report issued on June 21, 2012                  shareholder level. TIGTA also found that
                                                      additional steps could be taken to strengthen
Highlights of Reference Number: 2012-30-062           controls over the return classification process to
to the Internal Revenue Service Commissioner          further minimize the risk of selecting returns for
for the Small Business/Self-Employed Division.        audit that have limited audit potential.
IMPACT ON TAXPAYERS                                   WHAT TIGTA RECOMMENDED
IRS audits have led to a substantial number of        TIGTA recommended that, as resources
recommended adjustments to items reported on          become available, the Director, Research,
S corporation returns. However, the number of         SB/SE Division, analyze S corporation data files
audits closed with no recommended                     to help identify additional productive returns for
adjustments (no-change) is very high for returns      audit. In addition, the Director, Exam Policy,
selected by the Discriminant Index Function           SB/SE Division, should revise classification
system. This system uses mathematical                 guidelines to clarify that quality reviews need to
formulas to calculate and assign a score to           be completed for each type of return classified.
returns based on their audit potential.
                                                      In their response to the report, IRS officials
For example, Fiscal Year 2011 statistics for the      agreed with the recommendations and plan to
IRS’s Small Business/Self-Employed (SB/SE)            take corrective actions. Specifically, the IRS
Division showed that 62 percent of the                plans to analyze S corporation data files in order
S corporation returns audited after selection by      to better identify productive S corporation
the Discriminant Index Function system were           returns for audit and to revise guidance to reflect
closed as a no-change. According to the IRS, a        the need for a balanced review of various types
high no-change percentage means compliant             of returns by all classifiers.
taxpayers are burdened by unnecessary audits.
WHY TIGTA DID THE AUDIT
This audit was initiated to determine whether
SB/SE Division examiners are conducting audits
of S corporation returns in accordance with IRS
procedures and guidelines. The review was part
of our Fiscal Year 2011 audit coverage and
addresses the major management challenge of
Tax Compliance Initiatives.
WHAT TIGTA FOUND
TIGTA did not identify any significant quality
problems that would suggest the manner in
which items are selected and audited on
S corporation returns substantially contributes to
the no-change percentages. However, TIGTA
believes that SB/SE Division researchers should
explore using S corporation data files to
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 21, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Recommended Adjustments From
                             S Corporation Audits Are Substantial, but the Number of No-Change
                             Audits Is a Concern (Audit # 201030041)

 This report presents the results of our review to determine whether Small Business/
 Self-Employed Division examiners are conducting audits of S corporation returns in accordance
 with Internal Revenue Service procedures and guidelines. The review was part of our Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Frank J. Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (213) 894-4470 (Ext.128).
                      The Recommended Adjustments From S Corporation Audits Are
                      Substantial, but the Number of No-Change Audits Is a Concern




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Adjustments That Examiners Recommended to
          Address Suspected S Corporation Noncompliance
          Are Substantial .............................................................................................. Page 3
          The Number of Unproductive Audits Is Very High for
          S Corporations That Are Not Involved in Abusive
          Transactions .................................................................................................. Page 5
                    Recommendations 1 and 2: .............................................. Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Glossary of Terms ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 17
        The Recommended Adjustments From S Corporation Audits Are
        Substantial, but the Number of No-Change Audits Is a Concern




                       Abbreviations

DIF              Discriminant Index Function
FY               Fiscal Year
IRM              Internal Revenue Manual
IRS              Internal Revenue Service
PY               Processing Year
PSP              Planning and Special Programs
SB/SE            Small Business/Self-Employed
TIGTA            Treasury Inspector General for Tax Administration
TY               Tax Year
                     The Recommended Adjustments From S Corporation Audits Are
                     Substantial, but the Number of No-Change Audits Is a Concern




                                               Background

S corporations are required to annually file Form 1120S, U.S. Income Tax Return for an
S Corporation, although they generally do not pay any Federal income taxes. Instead, an
S corporation’s income, deductions, and other items are divided among and passed on to its
shareholders, who are required to report the items on their individual income tax returns. This
distribution of the flow-through income, deductions, and other items are reported to the
shareholder and the Internal Revenue Service (IRS) on Form 1120S Schedule K-1,
Shareholder’s Share of Income, Deductions, Credits, etc.
S corporations provide shareholders a number of attractive benefits that contribute to making
them one of the fastest growing types of business entities and the most common type of
corporate entity filing returns with the IRS. Organizing a business as an S corporation allows
shareholders to avoid double taxation on business profits. This treatment is unlike the traditional
corporation that incurs a tax liability at the corporate level and again when distributing business
profits to shareholders in the form of dividends. However, like a traditional corporation, an
S corporation provides shareholders with limited liability protection. In addition, S corporations
have the legal capacity to flow through business losses, within limitations, to their shareholders.
Shareholders can use the losses to offset their taxable income from other sources, such as salaries
and wages, reported on their individual returns.
To understand the impact the growth of S corporation returns could mean for tax compliance, the
IRS initiated a National Research Program study in Fiscal Year1 (FY) 2006 that documented the
extent to which S corporations and their shareholders complied with the tax laws. Completed in
FY 2008, the study involved the identification, selection, and examination of 4,877 S corporation
returns processed by the IRS for Tax Years (TY) 2003 and 2004. The IRS used statistically valid
sampling techniques to select the returns so the results from the examinations could reliably
measure the level of compliance for all S corporation returns.
This study was important because there has been nearly a fivefold increase in the number of
S corporation returns filed since the IRS last studied the reporting compliance of S corporations
by auditing approximately 10,000 returns from TY 1984. Consequently, it is not too surprising
that with the growth of S corporations and the length of time since the IRS last completed a
compliance study, IRS estimates of the extent to which S corporations properly report the
income, deductions, and credits on their returns and the corresponding tax consequences on
shareholder returns have become less reliable. Researchers must have reliable data to refine
estimates of the Tax Gap (i.e., the amount of taxes owed but not voluntarily paid), suggest


1
    See Appendix IV for a glossary of terms.
                                                                                            Page 1
                The Recommended Adjustments From S Corporation Audits Are
                Substantial, but the Number of No-Change Audits Is a Concern



needed tax policy and legislative changes, and assist the IRS in developing priorities for taxpayer
education programs to help reduce noncompliance.
The IRS’s Small Business/Self-Employed (SB/SE) Division serves the majority (more than
98 percent) of S corporations—those that have less than $10 million in assets. The SB/SE
Division is responsible for helping approximately 57 million taxpayers, including about
41 million self-employed individuals, understand and meet their tax obligations. The IRS’s
Large Business and International Division serves larger S corporations, those with more than
$10 million in assets.
This review was performed at the IRS’s SB/SE Division Headquarters in New Carrollton,
Maryland, and the SB/SE Division field offices in Los Angeles, California; Denver, Colorado;
Boston, Massachusetts; Cincinnati, Ohio; and Tulsa, Oklahoma, during the period August 2010
through January 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                   The Recommended Adjustments From S Corporation Audits Are
                   Substantial, but the Number of No-Change Audits Is a Concern




                                      Results of Review

The IRS developed a variety of sources to select returns for audit. The IRS strives to select for
audit those returns for which its examiners are likely to find areas of noncompliance and
recommend changes to one or more items reported on the return. One audit source is the
Discriminant Index Function (DIF) system, which the IRS has relied on over the years to help
decide how to best allocate its audit resources. The system uses mathematical formulas to
calculate and assign a score to returns based on their audit potential. The higher the score, the
greater the chance an audit will result in recommended changes to the return.
While IRS audit sources have led to a substantial amount of recommended adjustments to items
reported on S corporation returns, the number of audits closed with no recommended
adjustments (no-change) is very high among DIF-selected returns. For example, SB/SE Division
statistics show that the IRS closed with no changes 62 percent of the DIF-selected S corporation
returns audited in FY 2011.2 According to the IRS, a high no-change percentage means the IRS
is spending a significant amount of resources on unproductive audits and burdening compliant
taxpayers with unnecessary audits.

The Adjustments That Examiners Recommended to Address
Suspected S Corporation Noncompliance Are Substantial
IRS statistics show that in FYs 2007 through 2011, SB/SE Division examiners completed
53,544 audits of S corporation returns and recommended $5.7 billion in adjustments to items
reported on those returns. This was a 54 percent increase over the number of S corporation
returns the IRS audited in the previous five-year period (FYs 2002 through 2006). For each
return audited in FYs 2007 through 2011, examiners generated about $105,534 in recommended
adjustments to the net profits and losses reported by S corporations and passed on to
shareholders.
Due to limitations with IRS databases, neither the Treasury Inspector General for Tax
Administration (TIGTA) nor IRS officials know, with any degree of certainty, how much
additional tax is assessed based on the adjustments examiners recommend to S corporation
returns. However, the large number of recommended adjustments, combined with two other
factors, will likely lead to an increase in the number of S corporation audits. The first factor that
will drive the increase in S corporation audits is the IRS’s efforts to maintain coverage over the



2
 For this report, we considered audits closed with Disposal Code 02 as no-changes. For a flow-through entity, this
means that no adjustments were made to the reported income, loss, deductions, or credits of the entity.
                                                                                                           Page 3
                     The Recommended Adjustments From S Corporation Audits Are
                     Substantial, but the Number of No-Change Audits Is a Concern



growing number of S corporation returns, while the second involves addressing the compliance
risk they pose.

S corporations are a fast growing segment of business returns and are
generating a considerable amount of economic activity
The IRS estimates that S corporations will file nearly 5.7 million returns in Processing Year
(PY) 2015. This represents a 26 percent increase over the number of S corporation returns filed
in PY 2011. The growth in the number of S corporation returns processed by the IRS from
PYs 2006 through 2011 continued a trend that started in 1997, when they became the most
common type of corporation return filed. In PY 2011, S corporations filed approximately
4.5 million returns (an 80 percent increase over the 2.5 million S corporation returns filed in
PY 1997). This was also more than double the number of returns filed by traditional
Subchapter C corporations.
As the number of S corporations has increased, so has their economic activity, as reflected in the
growth of their assets and gross income. In TY 2008, IRS records show that S corporations
reported owning property, equipment, and other assets totaling approximately $3.4 trillion and
earning gross income of approximately $6.1 trillion. This growth was 89 percent over the
$1.8 trillion in assets they owned in TY 2000 and a 69 percent increase over their $3.6 trillion in
gross income for TY 2000. After deducting expenses from gross income, S corporations passed
along net profits of approximately $1.8 trillion and losses of about $486 billion to their
shareholders in TYs 2006 through 2010. Figure 1 shows the aggregate gross income,
deductions, and net profits and losses for S corporations in TYs 2006 through 2010.
          Figure 1: Aggregate Gross Income and Total Net Profits and Losses
                 for S Corporation Returns for TYs 2006 Through 2010

                                                               Tax Year
                                                                                                                 Totals
                                2006             2007             2008            2009           2010(*)       2006–2010

 Gross Income (√)              $5,691           $5,939           $5,819          $5,229          $5,487          $28,165
 Total Net Profits (√)          $376             $382             $350            $330            $353            $1,791
 Total Net Losses (√)            $75              $95             $118            $111             $87             $486
 Returns Processed            4,009,010        4,169,834        4,025,790       4,264,086       4,171,168       20,639,888
 Returns With a Profit        2,358,896        2,413,304        2,240,631       2,359,510       2,417,624       11,789,965
 Returns With a Loss          1,320,966        1,420,817        1,464,217       1,554,288       1,413,981       7,174,269
(√) Money amounts are presented in billions. (*) TY 2010 returns do not include returns filed after September 30, 2011.
Source: TIGTA analysis of the IRS Business Master File data for TYs 2006 through 2010.




                                                                                                                    Page 4
                The Recommended Adjustments From S Corporation Audits Are
                Substantial, but the Number of No-Change Audits Is a Concern



S corporations create compliance risks for the IRS because most are owned and
controlled by only one or two individuals
Continuing a trend that has existed for many years, the majority of S corporations are owned by
one shareholder or a closely knit group of shareholders. These shareholders typically have a
significant amount of control over managing and directing the day-to-day operations of the
S corporation. This, in turn, presents a compliance risk because it provides shareholders with
opportunities to structure transactions improperly to reduce the income taxes they would
otherwise owe. For example, in Calendar Year 2000, the IRS published guidance on
10 transactions that would likely trigger an audit because they purportedly abuse the tax law,
represent a significant loss of tax revenue, and undermine the public’s confidence in the tax
system. As of January 2012, the list of such abusive transactions has increased to 34, of which at
least four involve S corporations.

The Number of Unproductive Audits Is Very High for
S Corporations That Are Not Involved in Abusive Transactions
One important measure of audit productivity that the IRS tracks is the percentage of audited
returns that result in recommended adjustments to the return. The IRS associates a high
percentage of audited returns that result in recommended adjustments with greater audit
productivity, while audits that result in a no-change are considered to be unproductive. In
FYs 2009 through 2011, the SB/SE Division no-changed 10,750 audits of S corporation returns
out of the 32,546 returns it selected for audit from all sources. This indicates that the IRS closed
as no-change roughly one out of every three (33 percent) returns audited. However, the
no-change percentage was considerably higher for S corporation returns selected by the DIF.
As Figure 2 shows, the overall no-change percentage resulting from a DIF selection was
approximately 43 percent for S corporation returns. This population includes audits of the
original DIF-selected returns and any prior and subsequent year S corporation returns
(DIF-related) selected because of the original audit. When looking solely at the original
DIF-selected returns, SB/SE Division statistics show the no-change percentage to be about
60 percent in FYs 2009 through 2011. By comparison, the no-change percentage for
S corporation returns selected for audit because of an abusive transaction was approximately
19 percent in FYs 2009 through 2011. The no-change percentage was also lower than the DIF
for S corporation returns selected from other audit sources. These other sources include IRS
projects and studies such as the ones designed to focus on specific suspected areas of
noncompliance, other than known abusive transactions.




                                                                                             Page 5
                     The Recommended Adjustments From S Corporation Audits Are
                     Substantial, but the Number of No-Change Audits Is a Concern



                    Figure 2: SB/SE Division’s S Corporation Audit Closures
                           in FYs 2009 Through 2011 by Audit Source

   Selected S                                                 DIF and                   All Other
  Corporation           Abusive Transactions                 DIF-Related               Audit Sources
   Statistical           FY       FY         FY        FY        FY       FY        FY         FY        FY
   Categories           2009     2010       2011      2009      2010     2011      2009       2010      2011
 Total Returns
                        2,670    2,483     2,282     4,907     5,110     5,160     3,354     3,172     3,408
 Audited (a)
 Audits With
                        2,153    2,035     1,831      2,748    3,016     2,848     2,456     2,322     2,387
 Adjustments (b)
 No-Change
                         517     448        451       2,159    2,094     2,312      898       850      1,021
 Audits (a) – (b)
 No-Change
                        19%      18%        20%       44%       41%      45%        27%       27%       30%
 Percentage
 Source: TIGTA analysis of Audit Information Management System data for S corporation audits closed by the
SB/SE Division in FYs 2009 through 2011.

The difference between the DIF no-change percentage and the no-change percentage of returns
audited because of an abusive transaction or as part of an IRS project can be attributed to how
returns are selected for audit. For example, once the IRS identifies an abusive transaction and its
participants, the participants’ returns are assigned to examiners who simply disallow the abusive
transaction and compute the additional taxes and penalties that may be owed at the shareholder
level. In contrast, S corporation returns selected by DIF mathematical formulas do not identify
the specific items to audit. Instead, examiners use their experience and judgment to screen the
returns manually to identify the items that are questionable and should be included in the audit.
Consequently, outdated compliance data in the formulas and unintentional errors that are
inherent in any manual process are factors that contribute more to the higher no-change
percentages in the DIF and the DIF-related S corporation audits than the quality and scope of the
audits.
During our review of closed S corporation audits, we did not identify any significant quality
problems that would suggest the manner in which items are selected and audited on
S corporation returns substantially contributes to the no-change percentages. However, we
believe that SB/SE Division researchers should consider exploring using S corporation data files
to determine if examiners are auditing the most productive returns. We also found that
additional steps could be taken to strengthen controls over the return classification process to
further minimize the risk of selecting returns for audit that have limited audit potential.




                                                                                                       Page 6
                  The Recommended Adjustments From S Corporation Audits Are
                  Substantial, but the Number of No-Change Audits Is a Concern




Examiners followed procedures in verifying the accuracy of the items they
audited on S corporation returns
We evaluated a judgmental sample3 of 57 of the 3,542 S corporation returns audited in FY 2009
by the SB/SE Division where either the taxpayer agreed with the proposed assessment or the
examiner made no changes to the return. We found that examiners documented the steps taken
to plan the scope and depth of the audits. In addition, they used a variety of fact-finding
techniques to determine the accuracy of items they audited on the S corporation returns and cited
applicable sections of the tax law to support any recommended adjustments. Although we did
not find any quality problems with the items audited on the S corporation returns or how they
were audited, we found that, in 13 of the 57 audits, examiners did not properly consider audit
issues between the S corporation and related returns.
While the related return issues would not have changed any recommended adjustments made to
the S corporation return, they might have resulted in changes to one or more of the shareholders’
returns. In this situation, the IRS may record the S corporation audit as a no-change closure even
though changes were made to the shareholders’ returns. This would indicate that the
S corporation audits might be more productive than the statistics reflect.
For example, we found six cases where one or more shareholders’ estimated personal living
expenses exceeded the income they reported on their individual returns by more than $10,000.
*************************************1***********************************. The
considerable differences noted between expenditures and income raise serious questions about
whether the S corporation audit should have been expanded to include the shareholders’
individual returns to determine if there were additional sources of income that should have been
reported on the returns.
We recently made recommendations in other reports to address the quality concerns with issues
on related returns during audits.4 The SB/SE Division responded with its plans to address the
concerns, which included taking better advantage of the IRS’s automated information systems
and its performance management processes to ensure issues are properly considered and
addressed during audits on related returns. Therefore, we are not making any additional
recommendations for related return issues at this time.




3
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
4
 TIGTA, Ref. No. 2010-30-024, Significant Tax Issues Are Often Not Addressed During Correspondence Audits of
Sole Proprietors, pp. 6–7 (Feb. 2010); TIGTA, Ref. No. 2011-30-084, Additional Steps Are Needed to Better Ensure
Audits Are Expanded to Prior and/or Subsequent Year Returns When Substantial Taxes May Be Owed, p. 11
(Sept. 2011); TIGTA, Ref. No. 2011-30-113, Steps Can Be Taken to Enhance the Quality of Audits Involving Small
Corporate Returns, p. 10 (Sept. 2011).
                                                                                                          Page 7
                      The Recommended Adjustments From S Corporation Audits Are
                      Substantial, but the Number of No-Change Audits Is a Concern




SB/SE Division researchers should consider exploring how IRS data could be
used to identify more productive returns for audit
The IRS completed a National Research Program study of S corporations in FY 2008 and
subsequently developed a new DIF formula for selecting S corporation returns using new
compliance data. However, National Research Program officials told us that they have not
formulated plans to assess the effectiveness of the new DIF formula due to other workload
priorities. Until such plans are developed and implemented, the IRS could pursue alternative
selection techniques by using existing databases containing S corporation data to help identify
additional productive returns for audit. For example, we used the IRS’s Business Return
Transaction File, which contains all the items transcribed from S corporation returns, and the
Audit Information Management System, which contains S corporation audit results, to determine
whether the characteristics of S corporations with audit adjustments might provide productive
audit leads to other returns that were not selected for audit.
After eliminating audits involving tax shelters, our analysis of Audit Information Management
System and Business Return Transaction File data for FY 2011 showed that audits of
S corporations owned by one shareholder who reported a loss of at least $25,000 in three or more
consecutive years were highly productive in terms of the adjustments recommended. Of the
6,420 S corporations (8,568 returns)5 audited by the SB/SE Division in FY 2011, we determined
that 455 S corporations (7 percent) were in this category of single shareholders with consecutive
$25,000 losses. The 579 returns audited for the 455 S corporations accounted for approximately
$53.2 million in recommended adjustments and generated about $91,861 in adjustments for each
return audited. In comparison, examiners generated about $46,924 per return for the remaining
7,989 S corporation returns audited. These results suggest that more productive audits may have
occurred if resources had been directed to those S corporations that had one shareholder with
consecutive losses of more than $25,000 in at least three consecutive years.
There are various limitations with our analysis. For example, we did not evaluate closed audit
files to determine why the returns were selected for audit or the basis for the recommended
adjustments to the returns. In addition, we did not attempt to assess the tax impact from the
adjustments at the shareholder level. Because the tax impact at the shareholder level was not
addressed, the productivity from the 7,989 audits that generated about $46,924 per return could
be higher since significant adjustments might have been made to the shareholders’ individual
returns even though the audit of the S corporation returns resulted in a no-change.
Given its limitations, we do not expect the IRS to change how it selects S corporation returns
based on our analysis. However, the analysis shows how IRS data files could be used to identify
productive returns for audit and could be useful to SB/SE Division researchers who are
responsible for providing information, guidance, and advice on methodologies and strategies for


5
    Audits often involve multiple tax years.
                                                                                          Page 8
                     The Recommended Adjustments From S Corporation Audits Are
                     Substantial, but the Number of No-Change Audits Is a Concern



optimizing available resources to address noncompliance. With skills in such specialized areas
as statistics, operations research, economics, and computers, SB/SE Division researchers are
uniquely qualified to suggest alternative audit selection methods and explore details such as
assessing the revenue impact from S corporation audits by determining the taxes assessed or
refunded at the shareholder level.

Controls over the return classification process could be strengthened
Before returns reach an audit group, experienced examiners on a temporary assignment screen
(classify) the returns. These examiners (classifiers) have a critically important role in the audit
selection process because they use their experience and judgment to determine which returns will
be selected for audit consideration (selected) and which can be accepted as filed (accepted). If
the classifier accepts a return, it is eliminated from the audit stream and returned to IRS storage.
A classifier’s ability to select returns for which an examiner is likely to recommend changes and
to avoid selecting ones that pose little or no compliance risk will have a direct effect on
no-change percentages and the amount of additional taxes that are ultimately recommended,
regardless of how well the technical and procedural aspects of the audits are performed.
The primary technique used by the SB/SE Division to control and monitor the quality of the
work performed by classifiers is the review of returns by managers in its Office of Planning and
Special Programs (PSP). Among other things, the Internal Revenue Manual6 (IRM) recommends
PSP managers, or their designees, review a representative sample of returns selected and
accepted as filed by each classifier. To supplement the IRM guidance, in Calendar Year 2007,
the SB/SE Division developed and implemented a nationwide Classification Handbook7 that
provides detailed instructions and explanations of the administrative and business procedures
required during the classification process. The IRM and the Handbook also outline expectations
and responsibilities for both classifiers and managers. The manager’s expectations and
responsibilities include a requirement to document on Form 5126, Classification Quality Review
Record, the results from reviewing a minimum of 10 percent of the returns classified by each
classifier. The purpose for the reviews is to provide assurance that:
          Returns are selected or accepted in accordance with established guidelines.
          Classification checksheets are properly completed.
          The potential tax change is sufficient to warrant selection, especially on returns with a
           negative taxable income.
          Classifiers maintain a high level of technical proficiency, exercise good judgment while
           determining whether to accept returns as filed or select for audit, and utilize their time
           effectively.

6
    IRM 4.1.5.1.5 (Oct. 24, 2006).
7
    National Office Examination Classification Guidelines (revised May 31, 2007).
                                                                                                 Page 9
                  The Recommended Adjustments From S Corporation Audits Are
                  Substantial, but the Number of No-Change Audits Is a Concern



We reviewed available documentation for nine classification assignments8 involving
42 classifiers in four PSP offices during Calendar Year 2011. We determined that reviewers
properly documented Forms 5126 for 37 (88 percent) of 42 classifiers to indicate they had
reviewed and discussed with classifiers the required minimum 10 percent sample of classified
returns. However, we found that no reviews were conducted on any of the 255 S corporation
returns classified by five of the classifiers in two PSP offices. The reviewers did look at the
required 10 percent of individual and corporate returns classified by these five classifiers.
In a fifth PSP office evaluated, we found no reviews of the work completed by 15 classifiers who
screened 1,474 S corporation returns in FY 2011. IRS officials told us that all the classifiers in
this office were subject matter experts and the IRM9 does not require any supervisory review
over their classification work. However, SB/SE Division’s personnel directories did not list
these classifiers as contact points or subject matter experts, nor did the IRM specify the
qualifications needed to be a subject matter expert. Moreover, the absence of supervisory review
over these classifiers is contrary to the Standards for Internal Control in the Federal
Government, 10 which specifies providing continual supervision to effectively carry out important
activities, such as the return classification process.

Recommendations
Recommendation 1: As resources become available, the Director, Research, SB/SE
Division, should analyze S corporation data files to develop audit leads to help select additional
productive returns for audit.
        Management’s Response: IRS management agreed with this recommendation. The
        Director, Research, SB/SE Division, will work in collaboration with the Director,
        Examination, SB/SE Division, to analyze S corporation data files in order to better
        identify productive S corporation returns for audit.
Recommendation 2: The Director, Exam Planning and Delivery, SB/SE Division, should
revise classification guidelines to clarify that quality reviews are needed for each type of return
classified, including those classified by designated subject matter experts.
Management’s Response: IRS management agreed with this recommendation and will
revise their guidance to reflect the need for a balanced review of various types of returns by all
classifiers.



8
  One or two week assignments set up periodically (e.g., quarterly) by PSP offices to bring together a group of
classifiers to review DIF-selected returns for audit potential.
9
  IRM 4.1.5.1.5.2 (Oct. 24, 2006).
10
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government, p. 15 (Nov. 1999).
                                                                                                       Page 10
                      The Recommended Adjustments From S Corporation Audits Are
                      Substantial, but the Number of No-Change Audits Is a Concern



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether SB/SE Division examiners are
conducting audits of S corporation returns in accordance with IRS procedures and guidelines.
To accomplish this objective, we:
I.         Reviewed documentation to identify the policies and procedures for conducting
           S corporation audits in the SB/SE Division. This included documenting the applicable
           Internal Revenue Code sections, Treasury Regulations, Internal Revenue Manual (policy
           and procedural) sections, management directives, and examiner training materials.
II.        Determined how closely examiners are following IRS procedures and guidelines during
           S corporation audits.
           A. Reviewed examination management information reports and the Audit Information
              Management System1 database for FYs 2005 through 2009 and determined case
              volumes, no-change percentages, and adjustment dollars by type of case to identify
              the population of S corporation returns for selecting our sample.
           B. Reviewed a judgmental sample2 of 57 of 3,542 S corporation returns audited during
              FY 2009 with the following characteristics: DIF-selected returns, tax-shelter returns,
              and tax-shelter-related returns closed as no-change, no-change with adjustment, or
              agreed. We used a judgmental sample due to time and resource constraints. We
              confirmed the reliability of the data by comparing the Audit Information Management
              System data we extracted with examination management information reports.
           C. Reviewed the S corporation returns, examination work papers, and related
              Forms 1040, U.S. Individual Income Tax Return, to determine if the examiners:
                1. Identified whether related returns (shareholders’ income tax returns, employment
                   tax returns, and information returns) were required and accurately filed.
                2. Addressed the accuracy of the shareholder’s stock and debt basis and identified
                   any issues affected by the shareholder’s stock and debt basis.
                3. Identified and addressed any other significant issues on the returns that warranted
                   audit consideration.



1
    See Appendix IV for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 11
               The Recommended Adjustments From S Corporation Audits Are
               Substantial, but the Number of No-Change Audits Is a Concern



       D. Discussed our results with IRS officials and obtained agreement to the facts for the
          exception cases.
       E. Analyzed statistics for S corporation filings and examinations to determine trends.
          1. To review the growth in S corporation filing and examination statistics, we
             reviewed SB/SE Examination function management information reports for
             FYs 2002 through 2011.
          2. To review S corporation filing data for TYs 2006 through 2010, we obtained IRS
             Business Return Transaction File data for Processing Years 2006 through 2011.
             We then identified and grouped the data by tax year and validated the records by
             matching the tax year files to the IRS Business Master File to ensure we had data
             for returns that were processed to the IRS Master File.
          3. To review trends for no-change percentages in S corporation audits, we reviewed
             closed Audit Information Management System data for FYs 2009 through 2011.
             We validated the accuracy of this data with SB/SE Examination function
             management information reports. We sorted the data to identify audits involving
             tax shelters (Audit Information Management System Source Codes 17, 39, 40,
             and 44), audits selected or related to the DIF (Source Codes 02, 05, 10, and 12),
             and those from all other sources. For each type of audit, we identified the total
             returns audited, no-change closures, and closures with adjustments. We then
             computed the no-change percentage using those numbers.
       F. Reviewed historical data for S corporation history and legislation and available
          documentation for the S corporation National Research Program study to determine
          the extent of testing done and if and when changes were made to audit selection
          formulas.
III.   Reviewed the classification process to determine if the IRS was properly following
       guidelines and procedures for reviewing classified returns. For FY 2011, we reviewed a
       judgmental sample of Forms 5126, Classification Quality Review Records, for
       42 classifiers in four PSP offices (California, Central, Gulf States, and Western) and
       reviewed the classification process used by the North Atlantic PSP office for
       15 classifiers. We used judgmental sampling due to the availability of resources. We
       determined if procedures for quality reviews were adequate and effective by reviewing
       the volume of returns classified and the number of those returns selected for review by
       managers.




                                                                                         Page 12
                The Recommended Adjustments From S Corporation Audits Are
                Substantial, but the Number of No-Change Audits Is a Concern



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
classifying and examining S corporation returns. We evaluated these controls by reviewing
source materials, interviewing management, reviewing examination case files, researching
taxpayer accounts, and reviewing controls over the classification process.




                                                                                           Page 13
               The Recommended Adjustments From S Corporation Audits Are
               Substantial, but the Number of No-Change Audits Is a Concern



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Michelle Philpott, Acting Director
Alan Lund, Audit Manager
Kristi Larson, Lead Auditor
Carole Connolly, Senior Auditor
David Hartman, Senior Auditor
William Tran, Senior Auditor




                                                                                    Page 14
              The Recommended Adjustments From S Corporation Audits Are
              Substantial, but the Number of No-Change Audits Is a Concern




                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Director, Office of Research, Analysis and Statistics RAS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Research, Small Business/Self-Employed Division SE:S:R
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Office of Research, Analysis, and Statistics RAS




                                                                                  Page 15
               The Recommended Adjustments From S Corporation Audits Are
               Substantial, but the Number of No-Change Audits Is a Concern



                                                                               Appendix IV

                               Glossary of Terms

Audit Information Management System – A computer system used by the IRS Examination
function to control returns, input assessments/adjustments to the Master File, and provide
management reports.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Business Return Transaction File – An IRS database that contains the transcribed line items on
all business returns and their accompanying schedules or forms.
Calendar Year – The 12-consecutive month period ending on December 31.
Disposal Code – The IRS uses a two digit code to indicate the disposition of an examination.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Processing Year – The calendar year in which the return or document is processed by the IRS.
Source Code – A numeric code that identifies the source of an audit.
Subject Matter Expert – An employee selected as an SB/SE Division point of contact for a
specific tax topic.
Tax Year – A 12-month accounting period for keeping records on income and expenses used as
the basis for calculating the annual taxes due. For most individual taxpayers, the tax year is
synonymous with the calendar year.




                                                                                        Page 16
   The Recommended Adjustments From S Corporation Audits Are
   Substantial, but the Number of No-Change Audits Is a Concern



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 17
The Recommended Adjustments From S Corporation Audits Are
Substantial, but the Number of No-Change Audits Is a Concern




                                                       Page 18
